           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   SUPPLEMENTAL SECURITY INCOME
     RECIPIENTS WHOSE MEDICARE
     BENEFITS WERE TERMINATED
            DUE TO DEATH

   November 2006       A-01-06-26105




 AUDIT REPORT




                   .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 14, 2006                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Whose Medicare Benefits Were Terminated
           Due to Death (A-01-06-26105)


           OBJECTIVE
           Our objective was to determine whether Supplemental Security Income (SSI) payments
           should be terminated for recipients whose Medicare benefit records indicated they were
           deceased.

           BACKGROUND
           SSI is a nationwide Federal cash assistance program administered by the Social
           Security Administration (SSA) that provides a minimum level of income to financially
           needy individuals who are aged, blind or disabled. 1 Medicare is a health insurance
           program administered primarily by the Centers for Medicare and Medicaid Services
           (CMS) within the Department of Health and Human Services that provides health
           insurance benefits to the aged and disabled. 2 Although CMS has primary responsibility
           for the Medicare program, SSA is responsible for making Medicare entitlement
           determinations and maintaining the benefit records.

           In October 2005, we were asked to evaluate an idea submitted to SSA’s Employee
           Suggestion Program. The employee suggested we conduct an audit after finding
           several cases where SSI payments continued for recipients even though their Medicare
           benefits were terminated due to death.

           To perform our review, we obtained a file from SSA of all Medicare records terminated
           for death. Through data analysis, we found 251 individuals whose SSI payments
           continued even though their Medicare records indicated they were deceased. In
           April 2006, we referred all 251 cases to SSA for review and corrective action. (See
           Appendix A for more information about our scope and methodology.)

           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1801 et seq., 42 U.S.C. § 1395 et seq.
Page 2 - The Commissioner


RESULTS OF REVIEW
Of the 251 individuals in our population, 86 are deceased and their SSI payments
should be terminated. The remaining 165 beneficiaries were actually alive and their
Medicare benefits—and, in some cases, their SSI payments—were incorrectly
terminated. 3

PAYMENTS ISSUED AFTER DEATH

In 86 cases, the individuals’ Medicare records were properly terminated because they
died. Although the Agency stopped the SSI payments timely for 19 of these individuals,
SSA could have avoided issuing $490,288 in the remaining 67 cases had the Agency
stopped the SSI payments when the deaths were first discovered. 4 Additionally, we
estimate SSA could save $237,103 over the next 12 months by stopping payments to
the deceased recipients. The table below summarizes these 67 cases by the number of
monthly payments issued after the deaths were reported.

                    Months Paid After                    Number of
                   Death Was Reported                    Individuals
                      1 to 6 months                          11
                      7 to 12 months                         23
                     13 to 18 months                         11
                     19 to 24 months                           7
                     25 to 30 months                           7
                     31 to 36 months                           5
                     Over 36 months                            3
                           Total                             67

As of November 2006:

   59 records had been corrected and the SSI payments were stopped. We estimate
    SSA could have avoided issuing $440,251 in SSI payments had the Agency stopped
    the payments when the deaths were first discovered. In addition, we estimate SSA
    saved $212,347 that would have been paid over the next 12 months if the SSI
    payments to these 59 individuals had not been stopped.

   8 records still needed to be corrected and the SSI payments stopped. We estimate
    SSA could have avoided issuing $50,037 in SSI payments had the Agency stopped
    the payments when the deaths were first discovered. Further, we estimate SSA
    could save $24,756 over the next 12 months if the SSI payments to these
    8 individuals are stopped.


3
 SSA continues to review these cases. Our conclusions are based on our review of available electronic
data on SSA’s systems through November 2006.
4
  For purposes of our review, we considered an SSI payment that was issued after death to have been
“avoidable” if it was issued more than 30 days after the Agency terminated the Medicare benefits.
Page 3 - The Commissioner


For example, one individual in our sample—who received both Medicare benefits and
SSI payments—died in June 2004. The Medicare record was properly terminated.
However, because there was no information on the Medicare record to indicate that the
person also received SSI payments, these payments continued. Based on our audit,
SSA field office staff reviewed the case and discovered that the deceased recipient's
daughter had cashed SSI checks that were issued after the recipient's death. The case
was referred to the Inspector General’s Office of Investigations. SSA could have
avoided issuing $11,745—and the potential fraud that resulted—if the SSI payments
had been stopped when the death was reported to the Agency. By taking action to stop
the incorrect payments effective 2006, we estimate SSA avoided issuing an additional
$6,876 over the next 12 months.

In another case, SSA terminated the Medicare record of an individual who died in
October 2003 but did not stop the ongoing SSI payments. The Agency could have
avoided issuing $15,525 if the SSI payments had been stopped when the death was
reported to SSA. In addition, we estimate the Agency could save an additional
$7,236 over the next 12 months if the individual’s SSI payments are stopped.

We discussed these cases with staff in SSA’s Office of Systems. They identified
limitations in the Agency’s automated systems that caused these cases to go
undetected. The Agency implemented systems enhancements on September 30, 2006
which are expected to resolve these issues.

BENEFITS TERMINATED FOR LIVING INDIVIDUALS

In our review, we found that SSA terminated the Medicare benefits to 165 individuals
who were actually alive. 5 In addition, the Agency incorrectly terminated the SSI
payments to 85 of these individuals. Erroneous death terminations “…can cause undue
hardship for the individual[s] and create public relations problems” for SSA. 6 They also
create additional workloads for Agency staff, who must take action to correct the benefit
records and resume payments. According to SSA, these cases are “…very time
sensitive and require immediate action.”

Medicare Benefits Terminated

Erroneous Medicare terminations could lead to unpaid medical bills. Even though the
Agency considers these cases to be a high priority workload, we found that erroneous
Medicare terminations were not always corrected timely. 7 Information on SSA’s

5
  In some cases, a deceased spouse’s date of death was incorrectly recorded on the living spouse’s
Medicare record. The 165 cases in our audit represents 0.006 percent of the 2.7 million Medicare
records that were terminated for death as of December 2005. Limited testing of the 2.7 million records
did not uncover any additional instance of erroneous terminations.
6
    SSA, Operational Bulletin OB-06-019, April 26, 2006.
7
 These 165 cases are summarized by State and by responsible SSA Program Service Center in
Appendix B.
Page 4 - The Commissioner


systems indicated that 36 individuals contacted the Agency previously to report the
problems and request that their Medicare benefits be reinstated. As of November 2006:

 26 records were corrected. On average, SSA corrected these records and restored
  Medicare entitlement 8 months after the individuals first contacted the Agency to
  report the problem.

 10 records remained unresolved. On average, 10 months had elapsed since these
  individuals first contacted SSA to report the problem.

For example, in November 2005, an 81-year old beneficiary contacted SSA to report
that her Medicare claims were being denied. After recontacting the Agency several
times to resolve the error, SSA reinstated her Medicare benefits in July 2006—8 months
after the error was first discovered.

In another case, the Agency terminated the Medicare benefits of a 79-year old individual
in December 2004. The beneficiary reported the error to SSA in September 2005. The
individual followed up with the Agency several times, but her Medicare benefits had not
been reinstated as of November 2006.

SSI Payments Terminated

We found that deaths were not always verified before SSI payments were stopped. As
a result, the SSI payments to 85 recipients were terminated for death even though they
were alive. For example, in April 2005, CMS reported that a beneficiary died and, as a
result, SSA terminated the Medicare benefits. Although the death was not confirmed by
SSA, the Agency’s computer system automatically terminated the SSI payments to the
individual. In June 2005, SSA discovered that the beneficiary was actually alive and
took action to correct his SSI record and issue the payments that were previously
withheld. (Although SSA resumed his SSI payments in June 2005, the Agency did not
correct his Medicare benefit record until October 2006.)

According to SSA, first party reports of death are those the Agency receives by mail,
telephone or in person from acceptable reporters. Third party reports are those
received via computer matching with other agencies, including CMS. The Agency does
not require verification of death reports received from first party sources before stopping
benefit payments. However, because the Privacy Act requires that SSA confirm
information resulting from computer matches before taking action to stop benefit
payments, 8 it is the Agency’s policy to verify death reports received from third parties—
including CMS—before stopping SSI payments. 9

The SSI payments to these 85 individuals were stopped without verification of the
deaths because of limitations in SSA’s computer systems. Agency staff informed us

8
    The Privacy Act of 1974, as amended; 5 U.S.C. § 552a(p).
9
    SSA, POMS GN 02602.050.A.
Page 5 - The Commissioner


that, although the death reports were the result of computer matching with CMS, SSA’s
system treated them as first party reports instead of third party reports. As a result, the
system automatically terminated the payments to the individuals without first requiring
that Agency staff verify the deaths. 10

CONCLUSION AND RECOMMENDATIONS
About 34 percent of the 251 individuals whose Medicare benefits were terminated for
death were actually deceased and should no longer be issued SSI payments. For the
remaining 66 percent, the beneficiaries were actually alive and their Medicare
benefits—and, in some cases, their SSI payments—were incorrectly terminated.
Although these 251 cases represent a very small portion of the individuals receiving
Medicare benefits and SSI payments, we believe the sensitive nature of these cases
requires that immediate action be taken. Therefore, we recommend that SSA:

1. Review the cases in our audit population and take appropriate action to terminate
   the SSI payments for the deceased individuals and remove the erroneous death
   information for those individuals who are alive and reinstate their Medicare benefits.

2. Confirm the deaths reported from CMS before terminating payments to SSI
   recipients.

AGENCY COMMENTS
SSA agreed with our recommendations. (See Appendix C.)




                                                      Patrick P. O’Carroll, Jr.




10
   SSA incorrectly terminated the Medicare benefits and SSI payments to these 85 individuals. As of
December 2005 (when we obtained our data), the Agency had reinstated the monthly SSI payments but
had not reinstated the Medicare benefits to these individuals. We did not quantify the number of
individuals whose Medicare benefits and SSI payments were incorrectly terminated for death but were
fully corrected by the Agency subsequent to December 2005.
                                      Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Medicare Benefits Terminated for Living Individuals

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                   Appendix A

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable sections of Federal laws and Social Security Administration
  (SSA) regulations, rules, policies and procedures.

 Requested information from SSA’s Office of Systems on the death termination
  process.

 Obtained a file from SSA of 2,671,740 Medicare benefit records terminated for death
  as of December 2005. 1 Through additional analysis, we found 251 individuals whose
  Supplemental Security Income (SSI) payments continued even though their Medicare
  benefits were terminated for death. 2

 Reviewed available electronic data for the 251 cases and also referred them to SSA’s
  Office of Operations for corrective action.

 Calculated the (1) amount and number of monthly SSI payments that were issued to
  the deceased individuals after SSA first discovered their deaths, and/or (2) number of
  months Medicare benefits were terminated in error.

We performed our audit in Boston, Massachusetts between April and November 2006.
We tested the data obtained for our audit and determined it to be sufficiently reliable to
meet our audit objective. The entities audited were the Office of Applications and
Supplemental Security Income Systems under the Deputy Commissioner for Systems
and SSA’s field offices under the Deputy Commissioner of Operations. We conducted
our audit in accordance with generally accepted government auditing standards.




1
 We tested the 2.7 million records and concluded that nearly all of these cases were likely terminated
correctly (i.e., the beneficiaries were, in fact, deceased).
2
 In comparison, we found over 1.2 million records that were properly terminated for death on both the
Medicare and SSI benefit records.
                                                                           Appendix B

Medicare Benefits Terminated for Living
Individuals
In total, 165 cases in our population were alive and their Medicare benefits were
incorrectly terminated. The tables below summarize these 165 cases by State and by
responsible Program Service Center.

Table 1: 165 Cases in which Medicare benefits were incorrectly terminated, by State
    State                    Count             State                          Count
    Alabama                    4               Mississippi                      2
    Arkansas                   1               New Jersey                      10
    California                32               New Mexico                       3
    Connecticut                1               New York                        22
    District of Columbia       4               North Carolina                   3
    Florida                    6               Ohio                             4
    Georgia                    9               Oklahoma                         2
    Illinois                   6               Oregon                           1
    Indiana                    2               Pennsylvania                     6
    Kentucky                   4               Rhode Island                     1
    Louisiana                  3               South Carolina                   5
    Maine                      1               Tennessee                        1
    Maryland                   5               Texas                           13
    Massachusetts              5               Washington                       3
    Michigan                   3               Wisconsin                        2
    Minnesota                  1



Table 2: 165 Cases in which Medicare benefits were incorrectly terminated, by
responsible Program Service Center
            Program Service Center                   Count                Percent
Northeastern                                           28                    17%
Mid-Atlantic                                           20                    12%
Southeastern                                           26                    16%
Great Lakes                                            18                    11%
Western                                                37                    22%
Mid-America                                            18                    11%
Office of Disability Operations                        18                    11%
                       Total                          165                   100%
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:      November 01, 2006                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Supplemental Security Income Recipients
           Whose Medicare Benefits Were Terminated Due to Death" (A-01-06-26105)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “SUPPLEMENTAL SECURITY INCOME RECIPIENTS WHOSE
MEDICARE BENEFITS WERE TERMINATED DUE TO DEATH”
(A-01-06-26105)

Thank you for the opportunity to review and provide comments on this draft report. Since June
2006, various Agency components have continued working to ensure that our process for death
terminations on all records is valid and effective. We have reviewed not only the death inputs
from data received in person, by telephone or via returned checks, but also those reports of death
received from external agencies, such as the Center for Medicare and Medicaid Services (CMS).
Our review process is complicated by the fact that each system of record treats data differently
and so each must be analyzed to determine the most effective and efficient method of
establishing interfaces between the records. Therefore, starting with a clear understanding of
how each separate system works and interfaces with other systems is essential. Our goal is to
make the death input process and the interfaces between the various systems as error-free and
effective as possible.

Recommendation 1

Review the cases in our audit population and take appropriate action to terminate the
Supplemental Security Income (SSI) payments for the deceased individuals and remove the
erroneous death information for those individuals who are alive and reinstate their Medicare
benefits.

Comment

We agree. We will continue to investigate the cases to ensure that the appropriate actions are
taken and to reinstate benefits, if appropriate. We expect to complete the review by the end of
December 2006.

Recommendation 2

Confirm the deaths reported from CMS before terminating payments to SSI recipients.

Comment

We agree. It is the Agency’s policy to verify all third party reports of death received via
computer matching with CMS and other agencies before terminating benefits to an SSI recipient.
We will investigate the cost effectiveness of implementing the changes referenced in this report.




                                               C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

   Jeffrey Brown, Audit Manager, (617) 565-1814

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-26105.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
